U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




       U.S. Department of Commerce

 A Survey of Hurricane Katrina and
Hurricane Rita Contracts and Grants
            Final Audit Report No. DEN-17829-6-0001/July 2006




                             PUBLIC
                             RELEASE

                         Office of Audits, Denver Regional Office
MEMORANDUM FOR:               Otto J. Wolff
                              Chief Financial Officer and
                               Assistant Secretary for Administration

FROM:                         John M. Seeba
                              Assistant Inspector General for Auditing

SUBJECT:                      Survey of Hurricane Katrina and Hurricane Rita
                               Contracts and Grants
                              Final Audit Report Number DEN-17829-6-0001


This is the final report of OIG’s survey of Department of Commerce contracts and financial
assistance awards made in the aftermath of hurricanes Katrina and Rita. The contracts were
awarded to study the effects of hurricanes on selected structures in the region, and to recover
from the damaging effects of the hurricanes on Commerce structures, equipment, and personnel.
The grants were awarded to provide for economic and business developments in the hurricane
affected areas, and to fund the replacement of television transmission equipment damaged during
the hurricane. We found that the Department had taken steps to provide reasonable assurance
that funds were awarded appropriately on the contracts and financial assistance awards that we
examined. Therefore, our report does not contain recommendations for implementation and
follow-up and an audit action plan will not be required.

Introduction

We conducted this survey in conjunction with the President’s Council on Integrity and
Efficiency (PCIE) as part of its examination of relief efforts provided by the federal government
in the aftermath of hurricanes Katrina and Rita. A copy of this report has been forwarded to the
PCIE Homeland Security Working Group, currently coordinating the inspectors general review
of post-hurricane spending.

Objectives, Scope and Methodology

We performed a limited review of Department of Commerce contracts and financial assistance
awards made in the aftermath of hurricanes Katrina and Rita to determine whether Commerce
had taken reasonable steps to reduce the potential for fraud, waste and abuse. To accomplish our
objectives, we identified contractors and award recipients and the number and dollar value of
contracts and awards, and reviewed expenditures related to those transactions. We did not rely on
computer-processed data, but traced selected transactions to source documentation.
We used the following methodology:

   •   Personal interviews and examinations of relevant documents. We conducted
       entrance conferences with audit liaison and program officials from five
       Department of Commerce agencies: Economic Development Agency, Minority
       Business Development Agency, National Institute of Standards and Technology,
       National Oceanic and Atmospheric Administration, and National
       Telecommunications and Information Administration. We met with procurement
       officials and contracting officers to obtain listings of contracts issued subsequent
       to when hurricanes Katrina and Rita made landfall and obtained copies of
       contracts issued over $10,000 at NOAA’s Acquisition and Grants Office in Silver
       Spring, Maryland, and the Central Regional Acquisition Office in Kansas City,
       Missouri. We obtained grant documents and met with audit liaison and program
       officials of the Department in Washington, D.C., and at their regional offices. In
       addition, we obtained copies of the Federal Procurement Data System listing of
       post Hurricane Katrina issued contracts for Department of Commerce.

   •   Site Visits. We conducted site visits at both the National Marine Fisheries Service
       Laboratory and National Seafood Inspection Laboratory in Pascagoula,
       Mississippi, to observe the hurricane damage, confirm the receipt or delivery
       status of contracts and purchase requests, and discuss recovery efforts with
       laboratory directors. We met with officials of the Houston Minority Business
       Development Center and obtained documents outlining its assistance to minority
       contractors and outreach activities.

We conducted our basic field work from October to December 2005 at Department of
Commerce agencies or grant recipients in Washington, DC, Kansas City, Missouri,
Pascagoula, Mississippi, Atlanta, Austin, and Houston. We conducted our audit in
accordance with generally accepted government auditing standards and under the
authority of the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, dated May 22, 1980, as amended.

Department of Commerce Implemented Reasonable Precautions with Its Special
Hurricane Procurements

Two agencies within the Department of Commerce, NIST and NOAA, issued contracts to
acquire goods or services subsequent to the landfall of hurricanes Katrina and Rita. We
examined NIST and NOAA procurements in excess of $10,000 to determine whether the
agencies had taken reasonable steps to reduce the potential for fraud, waste and abuse.
We did not examine contractor billings to test for reasonableness and allowability of
costs.

NIST awarded one $300,000 contract to a California-based nonprofit corporation to
conduct a field study of damage caused by the hurricanes to major buildings, residential
construction, and different types of infrastructure, and to report on the findings and any
recommendations for more detailed studies. NIST chose not to use special procedures
for hurricane-related procurements, but instead used existing procedures to award the
contract. NIST awarded the contract noncompetitively, citing an unusual and compelling
urgency for the services and stating that the proposed contractor was the only responsible
source that could meet the government’s needs. Even though either unusual or
compelling urgency or lack of other responsible sources would have been a sufficient
basis for noncompetitive procurement, NIST’s written justification cited both. We
examined NIST’s written justification for the noncompetitive procurement and the
contract terms.

NOAA made the remaining Commerce procurements related to post-hurricane economic
recovery or relief. As of January 3, 2006, NOAA had made 668 individual hurricane-
related purchases, with obligations totaling about $6.56 million. The vast majority of
NOAA’s purchases were relatively small. In fact, 608 of the 668 purchases (91 percent)
were less than $10,000 each. Cumulatively, these 608 purchases accounted for less than
$300,000 of NOAA’s total. The remaining 60 purchases totaled about $6.27 million.


                            DOC Hurricane-Related Procurement Contracts

          1. National Institute of Standards and Technology: One $300,000 contract to
             conduct a field study on damage caused by the hurricanes to major buildings,
             residential construction, and different types of infrastructure, and to report on the
             findings and any recommendations for more detailed studies.

          2. National Oceanic and Atmospheric Administration: A total of 668 hurricane-
             related purchases with obligations totaling $6.56 million. More than 90 percent of
             purchases (608) were less than $10,000 each, but accounted for less than $300,000
             of the total. The remaining 60 totaled about $6.27 million.


OIG examined the 60 NOAA procurements in excess of $10,000 each to determine
whether the agency had taken reasonable steps to reduce the potential for fraud, waste
and abuse. Most of NOAA’s 60 largest procurements involved emergency response and
recovery operations at a NOAA facility in Pascagoula, Mississippi, that was severely
damaged by Hurricane Katrina. NOAA facilities in Miami, Florida, and at Stennis Space
Center in Mississippi also suffered damage from the hurricane. NOAA’s director of
acquisitions and grants designated NOAA’s Central Region Acquisition Division in
Kansas City, Missouri, as the lead office responsible for taking the necessary action to
quickly restore facilities to operational mode in an efficient and effective manner. The
director of the Central Region Acquisition Division and a NOAA project engineer were
deployed from Kansas City to Pascagoula immediately after the hurricane to provide on-
site procurement support and contractor oversight.

In a memo signed September 7, 2005, the Central Region Acquisition Division director
made a class action determination that full and open competition was not required for
supplies and services in response to Hurricane Katrina because NOAA’s need for
supplies and services was of an unusual and compelling nature and the government
would be seriously injured unless NOAA were permitted to limit the number of sources
from which it solicited quotes, bids, or proposals. Such class action determinations are
permitted by Section 6.303-1(c) of the Federal Acquisition Regulation. The determination
stated, “The affected offices are responsible for fishery management, seafood safety, and
the environment. It is critical that these offices be restored as quickly as possible so that
they can resume operations and manage programs that affect the safety and well being of
the public, the economy, and the environment.”

The largest of NOAA's sole source procurements involved emergency cleanup and repair
at the hurricane-damaged Pascagoula, Mississippi, facility. Before the storm struck, the
NOAA facility in Pascagoula was in the process of renovation and expansion. A NOAA
damage assessment of the Pascagoula facility immediately after the hurricane determined
that cleanup work should begin as quickly as possible to prevent the spread of mold. The
NOAA contracting officer determined that NOAA’s needs would best be served by
awarding the cleanup and repair contract to the construction contractor who had been
working on the renovation and expansion, rather than delaying the cleanup while locating
another contractor. According to the contracting officer, the renovation contractor was a
local small business with a good performance record and a crew available to begin work
immediately. We examined the contracting officer’s written justification to award the
contract noncompetitively and the terms of the contract. We also obtained a written
certification from the NOAA project engineer deployed to Pascagoula stating that the
prices paid by the government for cleanup and repair services were fair and reasonable.

In addition to facility cleanup and repair, managers of the damaged Pascagoula offices
and laboratories teamed with the contracting officer and project engineer from Kansas
City to assess immediate needs for reestablishing operations. These included acquisition
of trailers and/or modular buildings to serve as temporary work space, replacement office
and laboratory equipment and supplies, and replacement vehicles. We examined NOAA’s
procurement files and met with the contracting officer and NOAA’s director of
acquisitions and grants to identify NOAA’s management controls and procurement
procedures. We learned that most of the contracts in our sample were awarded
competitively, under normal Commerce procedures. OIG also examined receiving
records and toured the Pascagoula facility to observe the ongoing repair work and to
confirm receipt of items purchased. We observed many of the purchased and leased items
in use or in secure storage awaiting completion of temporary work space. NOAA
personnel in Pascagoula were able to provide information showing that purchased items
not physically located in Pascagoula were either still on order with vendors or being held
at the vendors’ facilities pending notification that temporary work space was available
and NOAA could accept shipment.

We also examined specific instances in which NOAA used emergency expanded
procurement authorities that were granted in the aftermath of Hurricane Katrina. Federal
law allows agencies to increase certain procurement thresholds and limitations to support
a national emergency. We determined that eight NOAA contracting officers received
emergency expanded procurement authorities. The expanded authorities were granted for
(1) micropurchases, which normally involve purchases up to $2,500 and are usually made
with federal purchase cards; (2) simplified acquisitions, normally referring to purchases
from $2,500 up to $100,000 that do not require the extensive formal solicitation process
mandated for larger government purchases; and
(3) requirements to set aside certain purchases for small and disadvantaged businesses. 1
The following table summarizes NOAA’s expanded authorities:

                                                                                 Hurricane Katrina
           Authority                  Normal Limit or Threshold                  Expanded Limit or
                                                                                    Threshold
         Micropurchase                            $2,500                              $15,000
     Simplified acquisition                      $100,000                            $250,000
    Socio-economic set-aside                      $2,500                              $15,000

We examined the 60 NOAA procurements in excess of $10,000 and found that
contracting officers utilized increased authorities for only nine procurements. Five of the
nine procurements involved the expanded simplified acquisition authority at the
hurricane-damaged Pascagoula, Mississippi, facility to lease modular buildings for
temporary workspace, purchase generators to provide electrical power, and purchase
replacement laboratory supplies and equipment. The largest of the five simplified
acquisitions totaled $140,000. The remaining four of nine uses of increased purchase
authorities involved three micropurchases of equipment, ranging in amount from a little
more than $10,000 to just under $14,000, and a waiver of a small business set-aside for a
$15,000 contract with a nonprofit marine sanctuary foundation.

From our limited review, we believe that the Department implemented reasonable
precautions, given the circumstances of a significant catastrophic event, to protect the
interests of the government and award contracts in a timely manner.

Department of Commerce Hurricane Financial Assistance Awards were Reasonable
and Handled Properly

Three Commerce bureaus, EDA, MBDA, and NTIA, made a total of six financial
assistance awards, involving about $9.42 million in federal funding, in the aftermath of
hurricanes Katrina and Rita. We examined the bureaus’ award processes to determine if
they took reasonable precautions to award financial assistance grants or cooperative
agreements to reduce the potential for fraud, waste and abuse. We limited our review to
the award process and did not audit either the recipient’s cost claimed or their
performance under the awards.

EDA Grant Awards. EDA awarded four grants totaling $8,840,000 to the states of
Louisiana ($4 million), Mississippi ($4 million) and Alabama ($450,000 and $390,000)
for economic recovery planning and technical assistance in the aftermath of Hurricane
Katrina. We examined EDA’s findings relative to the need for emergency grant funding
to the hurricane-impacted area, as outlined in a decision memorandum approved by the

1
  The eight contracting officers also received emergency increases in thresholds for (1) a test program for
acquisition of certain commercial items, and (2) restrictions on certain foreign purchases, but neither of
these expanded authorities were exercised in response to the hurricanes.
acting assistant secretary for economic development. In approving the memorandum, the
acting assistant secretary makes a determination that each of the states is designated a
“Special Impact Area,” which allows EDA to waive certain award processing
requirements that would otherwise apply to EDA grant funding, such as strict adherence
to comprehensive regional economic development strategies. The assistant secretary also
authorized the EDA regional directors responsible for the three states, for a period of 3
months, to modify general EDA processing procedures for economic recovery
investments in response to Hurricane Katrina and subsequent 2005 natural disasters.

MBDA Grant Awards. MBDA awarded a $300,000 cooperative agreement amendment
to the Houston Minority Business Development Center (MBDC) for supplemental
funding to provide business development services to minority owned businesses affected
by Hurricane Katrina in the state of Louisiana and to displaced minority firms from
Louisiana relocated in Texas. There was no nonfederal matching share requirement for
the amendment. The MBDC program does not have rules, including specified minimum
matching share requirements, published in the Code of Federal Regulations. The program
description contained in the Catalog of Federal Domestic Assistance states that MBDA
reserves the right to waive matching share requirements for MBDC awards on a case-by-
case basis.

NTIA Grant Awards. NTIA awarded a grant with a federal share of $283,320 to the
Louisiana Educational Television Authority, under the Public Telecommunications
Facility Program (PTFP), for emergency replacement of transmission equipment. The
grant required a nonfederal matching share contribution of $94,440, bringing the total
estimated project cost to $377,760. According to award documents, the Authority’s
television transmitter was damaged by Hurricane Katrina and was operating at only 20
percent power after the hurricane, prompting the request for financial assistance. NTIA
made the award under its existing PTFP regulatory authority, with expedited processing.
We confirmed that PTFP regulations allow NTIA to consider applications after the
closing date of its normal annual grant cycle and to establish an expedited timetable for
evaluation when an eligible applicant suffers catastrophic damage to its broadcast
equipment as a result of a natural disaster.

In conclusion, after reviewing the EDA, MBDA and NTIA award documents,
regulations, and discussing the award and with agency officials, we believe the
Department actions to award the grants were reasonable.

cc:    Sandy K. Baruah, Assistant Secretary of Commerce for Economic Development
       Ronald Langston, National Director, Minority Business Development Agency
       Dr. William A. Jeffrey, Director, National Institute of Standards and Technology
       Conrad C. Lautenbacher, Jr., Under Secretary and Administrator, National
         Oceanic and Atmospheric Administration
       John M. R. Kneuer, Acting Assistant Secretary for Communications and
       Information
